2311 Douglas Street
Omaha, Nebraska 68102-1214

OCKLE
t-sl
_
_ Legal Briefs
Ni.,,

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

Web Site
www.cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-881
HUONG L. TRAN and RICHARD W. HAZEN,
Petitioners,
v.
CITY OF HOLMES BEACH, FLORIDA;
CITY OFFICIALS in Official Capacity; FLORIDA
DEPARTMENT OF ENVIRONMENTAL PROTECTION;
DEPARTMENT OFFICIALS in Official Capacity,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION OF
RESPONDENTS FLORIDA DEPARTMENT OF ENVIRONMENTAL PROTECTION AND ITS
DEPARTMENT OFFICIALS (CORRECTED) in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 5441 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of April, .2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A: GENERAL. NOTARY-State of Nebraska
RENEE J. GOSS
wfer,..t. My Comm. Exp. September 5, 2023

ad/war-4 arige,
Notary Public

Affiant

40596

